AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Transuranic Waste Management at
 Los Alamos National Laboratory




 DOE/IG-0673                                February 2005
REPORT ON TRANSURANIC WASTE MANAGEMENT AT LOS ALAMOS NATIONAL
LABORATORY



TABLE OF
CONTENTS


  Legacy Transuranic Waste Disposal

  Details of Finding                                       1

  Recommendations and Comments                             4


  Appendices

  1. Objective, Scope, and Methodology                     6

  2. Transuranic Waste Storage                             8

  3. Prior Audit Reports                                   10

  4. Management Comments                                   11
Legacy Transuranic Waste Disposal

Background         Los Alamos National Laboratory (Los Alamos) has been involved
                   in the development, production, and maintenance of the Nation's
                   nuclear weapons stockpile for over six decades. Research,
                   development, and fabrication of weapons components produced a
                   massive quantity of waste material, including over 40,000 drums
                   of transuranic waste. This waste is composed primarily of
                   protective clothing, tools, equipment, and sludges contaminated
                   with manmade radioactive elements such as plutonium. Materials
                   contaminated with transuranic elements pose health and safety
                   risks that require storage and disposal in highly regulated facilities,
                   such as the Waste Isolation Pilot Project (WIPP).

                   The process to dispose of Los Alamos' transuranic waste inventory
                   at WIPP involves three stages. First, waste is characterized to
                   ensure it meets the waste acceptance criteria for WIPP. Second,
                   data generated by the characterization process is reviewed and the
                   waste is certified for disposal. Finally, certified waste is shipped to
                   WIPP for burial. Appendix 2 provides several photographs
                   depicting transuranic waste drums during storage, characterization,
                   and shipment.

Schedule Delays    Based on current projections, the Department of Energy
                   (Department) will not meet its transuranic waste disposal
                   commitments at Los Alamos. Specifically, the Department was
                   unable to satisfy its agreement to remove all high-risk transuranic
                   waste by December 2004. In addition, we estimated that the
                   Department is unlikely to complete removal of the remaining
                   legacy transuranic waste stored at the site until at least 2014 – four
                   years beyond its original 2010 commitment.

                                      High-Risk Transuranic Waste

                   In its May 2002 agreement with the State of New Mexico and the
                   Environmental Protection Agency, the Department committed to
                   removing all high-risk transuranic waste from Los Alamos by
                   December 2004. However, as of November 2004, only 168 of
                   2,300 high-risk waste drums had been shipped to WIPP for
                   disposal. Los Alamos stopped characterizing, certifying, and
                   shipping transuranic waste in October 2003, and does not plan to
                   resume shipping high-risk waste until April 2005. Los Alamos
                   does not anticipate completing the high-risk waste disposal project
                   until October 2005 – about 10-months behind schedule.




Page 1                                                                Details of Finding
                                       Legacy Transuranic Waste

                   The Department is also not on schedule to complete removing the
                   remaining legacy transuranic waste from the site by 2010. To meet
                   Los Alamos' accelerated disposition baseline goals, about 6,500
                   drums of legacy transuranic waste should have been characterized
                   and shipped to WIPP in Fiscal Years (FYs) 2003 and 2004.
                   However, we observed that only 1,360 drums of transuranic waste
                   were actually removed from Los Alamos during that period. In
                   May 2004, Los Alamos estimated that the project's completion
                   date had slipped by about 13 months. The schedule slippage
                   continued to grow and by September 2004, it had increased to
                   about two years, to 2012. Based on our analysis of Los Alamos'
                   past performance problems, waste processing and shipping rates,
                   and current operating conditions, we concluded that the legacy
                   transuranic waste disposition project would slip beyond the 2012
                   estimate, to at least 2014.

Operating Issues   The Department will not meet its transuranic waste disposal
And Supplemental   commitments because Los Alamos did not adhere to waste
Capacity           certification requirements. In addition, the Department did not
                   supply anticipated mobile waste processing equipment necessary
                   to achieve the accelerated waste disposal commitments.

                                            Operating Issues

                   Los Alamos personnel did not consistently follow approved waste
                   certification procedures when processing transuranic waste. We
                   noted that Los Alamos suspended transuranic waste
                   characterization in October 2003 – effectively halting all waste
                   disposal activities – because of adverse findings from a quality
                   assurance review conducted by the Carlsbad Field Office
                   (Carlsbad). The review concluded that personnel did not properly
                   calibrate equipment used to characterize waste. Consequently, Los
                   Alamos could not demonstrate that all waste drums met the
                   disposal requirements of WIPP. Carlsbad found that 98 drums of
                   transuranic waste had been sent to the WIPP even though they
                   were not properly certified for shipment and disposal. In addition
                   to that quality assurance review, statistics maintained by Carlsbad
                   indicated that about one half of the transuranic waste shipments
                   made by Los Alamos since 1999 had issues related to work quality
                   or procedural compliance.

                   We concluded that Los Alamos' rapid scale-up of waste operations
                   may have resulted in operational breakdowns. For example, in the
                   five years prior to the October 2003 work suspension, Los Alamos



Page 2                                                             Details of Finding
         only characterized, certified, and shipped a total of 1,589 drums of
         transuranic waste. When Los Alamos attempted to increase
         shipping rates to 2,000 drums in a single year, operating
         procedures failed. While Los Alamos revised its procedures and
         retrained its personnel during the period from October 2003
         through January 2004, the benefits of these actions were not fully
         realized because the Department required that uniform waste
         standards be employed for transuranic waste processing.
         Specifically, in February 2004, the Department directed Los
         Alamos to implement waste characterization and certification
         procedures developed by Carlsbad. Los Alamos finished
         implementing the new procedures and resumed full
         characterization of waste in July 2004.

         Although not related to waste processing activities, Los Alamos'
         ability to meet the accelerated waste disposal goals were further
         impacted by a site-wide operational stand down. In particular,
         transuranic waste operations were suspended again on July 16,
         2004. This shutdown was caused by security and safety issues,
         and was not controllable by officials charged with completing the
         transuranic waste disposal project. In September 2004, Los
         Alamos estimated that it would not resume characterizing waste
         until October 2004, certifying waste for disposal until January
         2005, and shipping waste to WIPP for disposal until March 2005.
         However, in November 2004, Los Alamos estimated it would not
         resume waste shipments until late April 2005.

                               Supplemental Capacity

         Overall schedule slippages grew when the Department did not
         supplement Los Alamos' waste characterization capacity as
         expected. A key component of Los Alamos' acceleration strategy
         was the Department providing two mobile waste characterization
         lines. These lines were expected to allow Los Alamos to nearly
         double its waste characterization capacity. Using assumptions
         from the Department's cleanup performance management plans,
         Los Alamos developed a baseline for meeting the accelerated
         transuranic waste disposal commitments in October 2003.

         The baseline assumed the Department would augment Los Alamos'
         transuranic waste processing capabilities in 2003 by deploying two
         mobile waste characterization lines. Los Alamos assumed that the
         Department's mobile characterization equipment would process
         nearly half, about 19,000 drums, of the transuranic waste




Page 3                                                    Details of Finding
                    inventory. However, the Department elected to deploy these
                    resources to other sites. Officials from the Office of
                    Environmental Management stated that a mobile real-time
                    radiography unit was provided to Los Alamos to aid in the waste
                    characterization process. However, Los Alamos' inability to utilize
                    the equipment in a timely manner resulted in the decision to re-
                    deploy the mobile processing equipment to sites that could more
                    effectively utilize these resources.


Risks, Costs, and   Unless the Department acts to increase waste throughput at Los
Delays              Alamos, it will not be able to satisfy its goal of reducing the risk
                    posed by the continued aboveground storage of transuranic waste.
                    The May 2000 Cerro Grande fire and the September 11, 2001,
                    terrorist attacks heightened the Department's awareness that
                    aboveground waste storage facilities are vulnerable to releases and
                    dispersal of radioactive material. Due to its close proximity to Los
                    Alamos' transuranic waste storage area, the town of White Rock,
                    New Mexico, will continue to be at an increased risk until the
                    Department finishes disposing of its high-risk transuranic waste.

                    Without additional action, the Department may be unable to
                    prevent the recurrence of unnecessary costs and a significant
                    overall cost growth for the project. For example, the Department
                    incurred over $23 million in costs during FY 2004 to correct
                    problems caused by Los Alamos' failure to follow waste
                    certification procedures and the site-wide operational stand down.
                    Additional efforts to increase the throughput of transuranic waste
                    processing lines at Los Alamos may also help the Department
                    reduce or eliminate the estimated $72 million cost increase
                    associated with completing the project four years beyond the
                    original commitment.

RECOMMENDATIONS     We recommend that the Assistant Secretary for Environmental
                    Management, in conjunction with the Administrator, National
                    Nuclear Security Administration:

                       1. Reevaluate transuranic waste characterization capabilities
                          at Los Alamos, mobile characterization equipment
                          deployment priorities, and based on resulting information,
                          take action to recover schedule slippages;

                       2. Update Los Alamos' waste disposition baseline to reflect
                          actual operating capabilities and resource allocations; and,




Page 4                                           Recommendations and Comments
                3. Notify stakeholders of any changes in the schedule for
                   meeting the Department's Letter of Intent commitments
                   following the completion of recommendations 1 and 2.

MANAGEMENT   The Assistant Secretary for Environmental Management concurred
REACTION     with recommendations 1 and 2. Management initially non-
             concurred with recommendation 3, stating that Los Alamos is
             working to re-baseline the waste disposal program in FY 2005.
             Once that is accomplished, all stakeholders will be notified of the
             Department's schedule. Management also believed it was too soon
             to conclude the Department would not meet the 2010 waste
             disposal commitment, and did not agree that the lack of waste
             characterization equipment contributed to schedule delays. The
             corrective actions planned by management include a review of the
             waste disposition baseline and the development of a recovery plan
             to improve the transuranic waste management program at Los
             Alamos. Management's comments are shown in their entirety in
             Appendix 4.

AUDITOR      Management's comments were responsive to recommendations 1
RESPONSE     and 2. We modified recommendation 3 to be consistent with
             management's comments. However, we continue to believe that
             our conclusions regarding the Department's ability to meet the
             2010 commitment date and the schedule impacts of the capacity
             constraints discussed in this report are valid. For example, Los
             Alamos' October 15, 2004, project management report indicated
             that the transuranic waste disposition project was already about
             two years behind schedule. Further, that two-year schedule delay
             did not take into account the fact that Los Alamos would have to
             characterize the 19,000 drums it assumed the Department's mobile
             characterization equipment would process. Finally, we noted that
             the schedule for the high-risk transuranic waste disposal project
             slipped again following the issuance of this report in draft for
             management comment in December 2004. According to
             information obtained from the Defense Nuclear Facilities Safety
             Board, Los Alamos does not plan to resume shipping high-risk
             waste until May 2005, a delay of another month, and believes that
             only about 40 percent of the waste shipments planned for FY 2005
             can be realistically achieved.




Page 5                                   Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of the audit was to determine whether the
              Department was on schedule to meet its transuranic waste disposal
              commitments at Los Alamos National Laboratory.

SCOPE         We conducted the audit from April 2004 through September 2004,
              at Los Alamos National Laboratory in Los Alamos, New Mexico;
              the Carlsbad Field Office in Carlsbad, New Mexico; and, the
              Office of Environmental Management in Washington, DC. The
              scope of the audit covered activities related to the characterization,
              certification, and shipment of transuranic waste from Los Alamos
              National Laboratory from 1997 through 2010.

METHODOLOGY   To accomplish the audit objective, we:
                 •   Analyzed the Department's Transuranic Waste Performance
                     Management Plan, the Performance Management Plan for
                     Accelerating Cleanup at Los Alamos National Laboratory,
                     and Los Alamos' accelerated waste disposition baseline;

                 •   Analyzed the Department's Letter of Intent for reducing
                     risk and accelerating the pace of environmental cleanup in
                     the State of New Mexico;

                 •   Discussed transuranic waste disposition activities with
                     officials from the Department and Los Alamos;

                 •   Analyzed the current operating environment to determine
                     the impact of actual and projected slippages; and,

                 •   Calculated schedule delays and cost impacts associated
                     with the Department's accelerated waste disposition project
                     at Los Alamos.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed significant internal controls related to Los Alamos'
              transuranic waste disposition project. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We
              also did not assess the reliability of computer-processed data
              because only a limited amount of computer-processed data was
              used during the audit.




Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    Finally, we assessed the Department's compliance with the
                    Government Performance and Results Act of 1993. We found that
                    the Department established performance measures to evaluate its
                    transuranic waste disposal efforts. However, the Department's
                    FY 2004 Performance and Accountability Report stated that Los
                    Alamos was able to resume waste shipments in the third quarter of
                    FY 2004 and that the Office of Environmental Management's
                    legacy transuranic waste disposition project was still on track for
                    completion by FY 2010. As of November 2004, Los Alamos had
                    not resumed transuranic waste shipments, and as discussed in this
                    report, the project is not on schedule.

                    An exit conference was held with the Office of Environmental
                    Management on February 4, 2005.




Page 7                                         Objective, Scope, and Methodology
Appendix 2

   TRANSURANIC WASTE STORAGE, CHARACTERIZATION, AND SHIPMENT

The photographs below are provided to aid readers in developing a better understanding of
transuranic waste disposition activities at Los Alamos.

The first two photographs show how transuranic waste drums are stored at Los Alamos.




Page 8                                                          Transuranic Waste Storage
Appendix 2 (continued)



                                              The photograph to the left shows the contents of
                                              a waste drum being characterized via real-time
                                              radiography. Los Alamos runs its waste drums
                                              through this process to ensure that the drums do
                                              not contain items prohibited from disposal at
                                              WIPP.




The last picture shows how transuranic waste shipments are configured for transportation to
WIPP near Carlsbad, New Mexico. Each of the 3 transportation containers shown can hold up to
14 drums of waste.




Page 9                                                         Transuranic Waste Storage
Appendix 3

                                     PRIOR REPORTS


   • The Stabilization of Nuclear Materials at Los Alamos National Laboratory
     (DOE/IG-0659, August 2004), found that although the Department had made some
     progress in stabilizing the most hazardous fissionable materials, stabilization had not
     been accelerated to the level anticipated. The Department missed interim milestones
     and project tasks, which may further delay stabilization and increase risk that
     stabilization will not be completed by 2010. Delays occurred because (1) the
     Department had not fully funded the stabilization effort at Los Alamos; (2) Los
     Alamos had not made full use of available project management tools; and (3)
     performance measures and incentives were not incorporated into the Los Alamos
     contract.

   • Transuranic Waste Retrieval and Processing at the Hanford Site (DOE/IG-0624,
     October 2003), found that the Department faces significant challenges retrieving and
     processing transuranic waste. The Waste Retrieval and Processing facility operated
     at significantly less than full capacity. The facility was designed to receive and
     process up to 3,400 containers of transuranic waste and 3,400 containers of low-level
     waste annually. However, in its first 4 years of operation, the facility processed an
     average of less than 1,300 containers of transuranic waste per year, and processing
     for FY 2003 was expected to increase only slightly. The Department's milestones
     were in jeopardy because Richland had not placed sufficient emphasis on retrieving
     and processing projects or developed what we considered to be an achievable
     transuranic waste retrieval plan. Similarly the Department had not performed a
     comprehensive study to determine achievable retrieval rates and optimal processing
     levels needed to meet, at a minimum cost, regulatory milestones and cleanup goals.




Page 10                                                                Prior Audit Reports
Appendix 4




Page 11      Management Comments
Appendix 4 (continued)




Page 12                  Management Comments
                                                                    IG Report No. DOE/IG-0673

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
